THE SCHER LAw Firm, LLP
ONE OLD COUNTRY ROAD, SUITE 385
CARLE PLACE, NY 11514

MARTIN H SCHER® W SCOTT KERSHAW
couNsEL

 

5 TEL 516-746-5040
JONATHAN L SCHER FAK 816.747.9300
AUSTIN R. GRAFF ROBERT § NAYGERG
—— (1989-2012)

AVRAKAM Y SCHER
"Also Adrned a Distt ot Cokambia

February 4, 2020

Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street, N.E.

Washington D.C. 20543-0001

Re: Shimon Waronker v. Hempstead Union Free School District et a/.

No. 19-893
Dear Mr. Harris:

The petition for a writ of certiorari in the above-captioned matter was filed on
January 16, 2020, and placed on the docket on January 17. Respondents’ response
is currently due by February 18, 2020.

On behalf of all Respondents, I respectfully request, under Rule 30.4 of the
rules of this Court, an extension of time for 30 days to and including March 19,
2020, within which to prepare and file a response. The petition presents issues
involving the scope of First Amendment protection for speech by a public official.
Given the press of other business, the requested extension is necessary for
Respondents’ counsel to analyze the supposed split of authority alleged in the
certiorari petition, and prepare a cogent response that fully addresses any issues
that might otherwise be waived. by operation of Rule 15.2. Among other things,
during the time currently allowed for preparing the response, undersigned counsel
has the following other professional commitments, including arbitrations previously
scheduled,
THE ScHER Law Firm, LLP Scott S. Harris, Clerk of the Court
Supreme Court of the United States

February 4, 2020

Page 2 of 2

I am authorized to represent the Petitioner consents to the requested
extension.

 

Counsel for Respondenis Hempstead
Union Free Schoo! District, the Board
of Education of the Hempstead School
District, David B. Gates, in his
Individual and official capactty, Randy
Stith, in his individual and official
capacity, Lamont EF. Jackson, in the
his individual and official capacity,
and Patricia Wright, as a necessary
party in her capacity as Clerk of the
Hempstead School District

cc’ Erwin Chemerinksy, Esq. (by email and by regular mail)
Frederick K. Brewington, Esq. (by email and by regular mail)
